Office of Inspector General




 Semiannual Report

    to the Congress

October 1, 2004 - March 31, 2005





Railroad Retirement Board
                     TABLE OF CONTENTS
                              CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    4

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5

Audits: Management Decisions and Implementation . . . . . . . . . . . . . .                                 12


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   13

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           14

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         15

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               17

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . .                     26

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                       28


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              29

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . .                                    30

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . .                                32

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    33

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . .                           38





All reports are available on our website: http://www.rrb.gov/oig/Rrboig.htm
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




EXECUTIVE SUMMARY

Audit Activities
                       During the reporting period of October 1, 2004 - March 31,
                       2005, the Office of Audit completed the audit of the RRB’s
                       Fiscal Year (FY) 2004 financial statements, related internal
                       controls and compliance with laws and regulations, and issued
                       a clean opinion on the financial statements. Auditors again
                       cited the agency’s information security program as a source of
                       material weakness in internal control. The audit also identified
                       compliance as a reportable condition because the RRB lacks
                       adequate controls to ensure that changes to laws and
                       regulations are fully implemented.

                       Auditors identified four serious management challenges facing
                       the agency: the control environment, asset stewardship,
                       managing for change, and information technology security.

                       Auditors also conducted reviews related to the agency’s
                       processing of disability earnings cases and the agency’s
                       compliance with Federal laws and regulations on competitive
                       sourcing. A paper summarizing past OIG recommendations
                       concerning the staffing and utilization of field service offices
                       was provided to the RRB’s Chairman during this period. The
                       OIG continues to support a consolidation of the field service
                       offices and greater use of technology.


Investigative Accomplishments
                       During the past six months, the Office of Investigations (OI)
                       achieved 27 convictions, 17 indictments and informations, 19
                       civil judgements, and $1,219,205 in recoveries, restitutions,
                       fines, civil damages, and penalties.


                                          1
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




INTRODUCTION

Railroad Retirement Board
                       The Railroad Retirement Board (RRB) is an independent
                       agency in the executive branch of the Federal government that
                       is headed by a three member Board appointed by the President
                       of the United States, with the advice and consent of the
                       Senate. One member is appointed upon the recommendation
                       of railroad employers, one is appointed upon the
                       recommendation of railroad labor organizations, and the third,
                       who is the Chairman, is appointed to represent the public
                       interest.

                       The agency administers comprehensive retirement-survivor
                       and unemployment-sickness insurance benefit programs for
                       the nation's railroad workers and their families under the
                       Railroad Retirement and Railroad Unemployment Insurance
                       Acts. The RRB also has administrative responsibilities under
                       the Social Security Act for certain benefit payments and
                       Medicare coverage for railroad workers.

                       During FY 2004, the RRB paid approximately $9 billion in
                       retirement and survivor benefits to some 649,000 beneficiaries,
                       while net unemployment and sickness insurance benefits of
                       $83 million were paid to almost 32,000 claimants. The RRB
                       also administers its own Medicare Part B program through a
                       single carrier, Palmetto GBA. The carrier made payments
                       totaling $923 million to provide medical insurance benefits for
                       551,000 beneficiaries.




                                          2
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




Office of Inspector General

                       The Office of Inspector General (OIG) has the responsibility for
                       promoting economy, efficiency and effectiveness in the
                       programs of the Railroad Retirement Board. The office is also
                       charged with the detection, prevention and elimination of fraud,
                       waste and abuse in agency operations. To accomplish its
                       mission, the OIG conducts audits, management reviews and
                       investigations.

                       The Railroad Retirement Solvency Act of 1983 established the
                       Office of Inspector General at the Railroad Retirement Board
                       by naming the agency as “one of such establishments”
                       identified under Section 2 of the Inspector General Act of 1978.
                       The Inspector General Act Amendments of 1988 added the
                       RRB to the list of agencies covered by the Inspector General
                       Act.

                       The OIG has 53 employees assigned to three operational
                       components: the immediate office of the Inspector General, the
                       Office of Audit, and the Office of Investigations. The office
                       conducts operations from two locations: the headquarters of
                       the Railroad Retirement Board in Chicago, Illinois, and an
                       investigative field office in Philadelphia, Pennsylvania.




                                          3
  Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




OFFICE OF AUDIT

                     The Office of Audit (OA) conducts audits and reviews to
                     promote economy, efficiency, and effectiveness in the
                     administration of RRB programs, and to detect and prevent
                     waste, fraud, and abuse in such programs. Through the
                     Inspector General, the office ensures that the Board Members
                     and Congress are informed of current and potential problems in
                     the RRB’s programs and operations, and advised of
                     recommended improvements, as well as the status of
                     corrective actions. OA examines programmatic, financial, and
                     administrative aspects of RRB operations.

                     During this semiannual reporting period, OA performed the
                     audit of the FY 2004 financial statements, related internal
                     controls and compliance with laws and regulations. Auditors
                     also identified four serious management challenges facing the
                     agency: the control environment, asset stewardship, managing
                     for change and information technology.

                     Auditors also completed two additional reviews: an evaluation
                     of the RRB’s processing of disability earnings cases and an
                     audit of agency compliance with Federal laws and regulations
                     on competitive sourcing. In addition, auditors provided a
                     summary document to the RRB Chairman on previous OIG
                     findings and recommendations concerning the agency’s field
                     service. The OIG has repeatedly recommended that the RRB
                     consolidate the field service operations and place a greater
                     emphasis on technology to provide customer service.

                     Discussion of the reviews, major findings and
                     recommendations for corrective actions follow.




                                        4
     Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




AUDIT OF THE FY 2004 FINANCIAL STATEMENTS

                        On October 25, 2004, the Railroad Retirement Board issued its
                        FY 2004 Performance and Accountability Report that
                        summarized the agency’s accomplishments in administering
                        the programs provided by the Railroad Retirement Act and the
                        Railroad Unemployment Insurance Act. This report includes
                        the results of the OIG audit of the FY 2004 financial statements
                        and a discussion of the serious management challenges
                        identified by the OIG.

                        The OIG concluded the audit of the Railroad Retirement
                        Board’s FY 2004 financial statements, related internal controls
                        and compliance with laws and regulations, and issued a clean
                        opinion on the financial statements. They also cited a material
                        weakness in the RRB’s information security program, and a
                        reportable condition in controls over implementation of changes
                        to laws and regulations. In addition, they noted other matters
                        involving the RRB’s internal control structure and its operation.


Material Weakness

Information System Security

                        In the audit of the FY 2003 financial statements, OIG auditors
                        cited the agency with material weaknesses in internal control
                        as a result of major deficiencies in access controls in both the
                        mainframe and end-user computing environments, and in the
                        training provided to staff with significant security
                        responsibilities. During FY 2004, OIG auditors again evaluated
                        information security in accordance with the Federal Information
                        Security Management Act. These reviews identified continuing
                        weaknesses in many areas of the RRB’s information security
                        program. As a result, auditors identified the program as a
                        source of material weakness in internal control because of


                                           5
     Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                        significant deficiencies in program management and access
                        controls.

                        The RRB has initiated actions to correct the identified
                        weaknesses and to strengthen information security but has not
                        completed corrective action necessary to eliminate the
                        previously reported deficiencies.



Reportable Condition

Compliance

                        Auditors reported that the RRB’s debt recovery program was
                        not updated for changes to agency regulations that impact
                        interest charges on program debt. As a result, some debtors
                        were overcharged interest. The non-compliance did not have a
                        material monetary impact in the aggregate, but indicated that
                        the agency does not have adequate controls to ensure that
                        changes to laws and regulations are fully implemented.
                        Auditors recommended, and agency management concurred,
                        that the Office of General Counsel should take action to ensure
                        the laws and regulations are fully implemented in a timely
                        manner.


Compliance with Laws and Regulations

                        The auditors’ tests of compliance with selected provisions of
                        laws and regulations disclosed two instances of non-
                        compliance that are reportable under generally accepted
                        government auditing standards or Office of Management and
                        Budget guidance. The RRB did not implement a change to the
                        Code of Federal regulations (CFR) that would have delayed
                        interest charges on delinquent debt by an additional 30 days
                        under 20 CFR Section 200.7(b)(2). The RRB also did not
                        implement provisions of the Railroad Retirement and Survivors
                        Improvement Act of 2001 that require railroad retirement


                                           6
      Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                         benefits to be disbursed by a qualified non-governmental
                         financial institution rather than the Department of the Treasury.
                         Agency management is currently seeking legislative relief from
                         this requirement.


Other Matters Involving Internal Control

                         In the Letter to Management, auditors addressed other internal
                         control issues related to recording obligations and transactions,
                         quality assurance reviews, documenting procedures, and
                         accounting for financial interchange advances and receivables.
                         Management agreed to the auditors’ recommendations and
                         have scheduled corrective actions.



SERIOUS MANAGEMENT CHALLENGES

                         The OIG has identified four serious management challenges
                         facing the RRB: Control Environment, Asset Stewardship,
                         Managing for Change, and Information Technology Security.


Control Environment

                         The OIG expressed continuing concerns about the
                         effectiveness of the RRB’s overall control environment. This
                         issue has been cited as a material weakness in previous audits
                         of the financial statements because the agency’s current
                         structure fosters an emphasis on the issues and objectives of
                         its various operating units at the expense of larger
                         organizational goals.


Asset Stewardship

                         The OIG continues to question the adequacy of oversight
                         provided to the National Railroad Retirement Investment Trust


                                            7
     Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                        (NRRIT), an entity with the responsibility for the investment of
                        Railroad Retirement Act investments that total in excess $25
                        billion. The agency’s three member Board has accepted a
                        largely passive relationship with the NRRIT. In addition, the
                        NRRIT has not been required to consolidate financial reporting
                        with the RRB. The OIG believes this separate financial
                        reporting, although adhering to the letter of the law, undermines
                        the effectiveness of the overall Federal initiative towards
                        financial accountability.


Managing for Change

                        The OIG again cited the continued viability of the RRB as a
                        business entity as a serious management challenge. The
                        agency administers benefit programs that are redundant of
                        other Federal social insurance programs and has a rapidly
                        declining customer base. The OIG has repeatedly urged the
                        agency to transform itself to meet the challenges of providing
                        efficient service delivery to a declining number of railroad
                        workers and beneficiaries. Agency management has generally
                        disregarded OIG recommendations for altering the agency’s
                        service delivery model.


Information Technology Security

                        The agency’s information services are experiencing increasing
                        demands in providing service for existing data processing
                        operations, adding new mainframe and desktop applications,
                        and delivering service to the railroad community electronically.

                        As discussed above, the OIG has cited the agency with
                        material weaknesses that have resulted from significant
                        deficiencies in access controls in both the mainframe and end-
                        user computing environments, and in the training provided to
                        staff with significant security responsibilities. Agency
                        management has acknowledged the material weaknesses
                        reported by the OIG and has planned action to address them.


                                           8
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                       As the RRB expands internet communication services with

                       beneficiaries and railroad employers, management will face

                       additional challenges in developing and

                       maintaining a strong information security position. 





EVALUATION OF THE RRB’S PROCESSING OF
DISABILITY EARNINGS CASES

                       Under the Railroad Retirement Act (RRA), the agency pays a
                       total and permanent disability if an employee is disabled for all
                       regular work and has at least ten years of creditable railroad
                       service. An occupational disability is paid if an employee is
                       disabled for his/her regular railroad occupation and has either
                       ten years of creditable railroad service at age 60 or 20 years of
                       service at any age.

                       Disabled employees have work restrictions and earnings
                       limitations that can affect their annuity eligibility. An annuity is
                       subject to a work deduction based on earnings in non-railroad
                       employment or self-employment after an annuity beginning
                       date. In addition, a disability annuity is not payable for any
                       month in which an annuitant works for a railroad or other
                       employer covered by the RRA. Although an annuitant is
                       required to report any such earnings to avoid overpayments,
                       the agency has established monitoring programs to identify
                       post-disability earnings that have not been voluntarily reported.

                       Auditors performed this review to determine if the agency
                       identifies and applies deductions to disability employee
                       annuities in a timely manner. Results indicated that there is
                       insufficient monitoring of disabled annuitants with earnings for
                       possible work deductions. The review also revealed that
                       program staff failed to investigate earnings cases identified in
                       2000 and 2001 program integrity matches, and did not identify
                       all disabled annuitants employed by a railroad employer after
                       their annuity beginning date. In addition, staff did not always

                                          9
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                       process disability earnings cases to ensure the identification
                       and collection of overpayments.

                       As a result of auditors’ findings, agency management has
                       agreed to:

                       • review the program integrity match results and track the
                       amounts overpaid,

                       • implement revisions to the automated programs that will
                       identify and compile service months,

                       • establish standards for timely processing of earnings cases
                       identified in the annual policing, and

                       • develop standards to ensure all overpayment information for
                       cases referred to the OIG is forwarded to the appropriate
                       agency staff for establishment of receivables.



REVIEW OF THE RRB’S COMPLIANCE WITH FEDERAL
LAWS AND REGULATIONS ON COMPETITIVE SOURCING

                       The Federal Activities Inventory Reform (FAIR) Act of 1998
                       directs Federal agencies to issue an annual inventory of all
                       commercial activities performed by employees. Such activities
                       include services such as information gathering, building
                       security, mail operations, housekeeping, warehouse
                       operations, and routine electrical or mechanical services. In
                       May 2003, OMB revised Circular A-76, Performance of
                       Commercial Activities, to implement the statutory requirements
                       of the FAIR Act.

                       The OIG performed this review to determine if the RRB’s
                       competitive sourcing policy is in compliance with the FAIR




                                         10
Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                   Act and OMB Circular A-76. Although agency policies and
                   procedures are generally in compliance, auditors identified
                   several areas in which RRB managers could make
                   improvements. When completing the 2004 inventory, the
                   responsible RRB office did not consult with various agency
                   bureaus to obtain current information, but simply updated the
                   prior year information independently. As a result, auditors
                   recommended that the RRB implement procedures to ensure
                   future reports are current, comprehensive and prepared in
                   consultation with appropriate bureaus. Auditors also
                   recommended that the RRB management direct staff to revise
                   the agency website to provide more details on FAIR Act report,
                   background information on the process used, and a notice of
                   procedures for appeals and challenges.

                   The RRB has not performed any OMB Circular A-76 public-
                   private job competitions for commercial activities since 1977.
                   The Circular’s guidelines direct Federal agencies to conduct
                   public-private job competitions and determine if an internal
                   agency unit is the most efficient organization or if an external
                   contract can provide the service at a lower cost. In its FY 2004
                   Fair Act Inventory, the RRB indicated that 83% of its
                   commercial activities are for data processing services and
                   systems design, development and programming services.

                   Auditors believe that the agency’s request for $12.8 million in
                   FY 2006 to implement information technology improvements
                   provides the opportunity for the RRB to seek competitive
                   sourcing solutions involving technology staffing, infrastructure
                   and services. Such solutions will assist the agency, as many
                   information technology employees become eligible for
                   retirement, in ensuring extensive information technology
                   upgrades can be completed. Auditors recommended that
                   agency management perform a feasibility study to determine if
                   the agency should implement public-private competitions of
                   commercial information technology services. Agency officials
                   concurred with all findings contained in the auditors’ report and
                   plan to complete all recommended action during FY 2005.


                                     11
     Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




MANAGEMENT DECISIONS AND IMPLEMENTATION

   The Office of Inspector General maintains the open audit follow-up system to track
   the status of corrective actions for all audit recommendations. Office of
   Management and Budget Circular No. A-50 (Revised) and the Inspector General
   Act Amendments of 1988 require the reporting of management decisions and
   corrective actions for all audit recommendations.



   Management Decisions for Recommendations



   Requiring a management decision on October 1, 2004                                     0

   Pending management decisions for new recommendations                                  0

   Management decisions for previous recommendations                                      0

   Recommendations pending a management decision
     on March 31, 2005                                                                    0



   Corrective Actions

   Recommendations requiring action on October 1, 2004                                   97

   Recommendations issued during this period                                             23

   Corrective actions completed during the period                                        32

   Final actions pending on March 31, 2005                                               88




                                          12
  Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




OFFICE OF INVESTIGATIONS
          INVESTIGATIONS


                     The Office of Investigations (OI) focuses on RRB benefit
                     program fraud. OI's primary objective is to identify and
                     investigate cases of waste, fraud and abuse in RRB programs
                     and refer them for prosecution and monetary recovery action.
                     Through its investigations, OI also seeks to prevent and/or
                     deter program fraud. In order to maximize the effect of its
                     resources, OI continues to pursue cooperative investigative
                     activities and coordination with other Inspectors General and
                     law enforcement agencies, which include the Social Security
                     Administration-Office of Inspector General, the Office of
                     Personnel Management-Office of Inspector General, the
                     Federal Bureau of Investigation (FBI), the U.S. Secret Service,
                     the Internal Revenue Service, and the Postal Inspection
                     Service.




                                       13
      Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




INVESTIGATIVE ACCOMPLISHMENTS



Convictions                                                                               27

Civil Judgements                                                                          19

Indictments/Informations                                                                  17

Investigative Recoveries                                                        $ 401,722

Restitutions and Fines                                                          $ 573,249

Civil Damages and Penalties                                                     $ 244,234

Potential Economic Loss Prevented (PELP)                                        $ 107,236

Community Service Hours                                                                   280

Disciplinary/Administrative Action                                                         0

Civil Complaints                                                                          10
Criminal Complaints                                                                        1

Arrests                                                                                    3

Subpoena Service:
 Inspector General                                                                         5
 Federal Grand Jury                                                                       41
 Trial                                                                                     7

U.S. Attorney Referrals                                                                   128




                                           14

         Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




INVESTIGATIVE CASES

During this semiannual period, OI opened 91 investigations and closed 141 cases. The
major sources of case referrals are illustrated below.

                                                   Computer Matches - 4%
           RRB Field Offices - 16%

                                                             OIG Developed - 9%




                                                                Hotline - 17%




      RRB Headquarters - 49%



                                                         Others - 5%




OI's current caseload totals 488 criminal matters, representing approximately $11.4 million
in fraud against the RRB.

                                                           Disability -207 cases
                                                               $5,098,000




  Unemployment - 89 cases
        $445,000
                                                                       Sickness - 18 cases
                                                                            $80,000


                                                                  Spouse/Dependent - 33 cases
                                                                       $892,000


         Retirement - 95 cases                                  Representative Payee - 27 cases
              $1,561,000                                              $158,000

                                                         Other - 19 cases
                                                          $3,170,000




                                              15
     Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




DISTRIBUTION OF CASES

   The Office of Investigations (OI) conducts its investigations throughout the United
   States in response to complaints or allegations regarding violations of Federal law.


   The map below indicates the number of open investigations that OI currently has in
   each state; there are no open cases in Alaska or Hawaii. Two additional
   investigations are underway in Canada.




                                          16
      Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




REPRESENTATIVE INVESTIGATIONS


Retirement Benefit Investigations

                         RRB retirement fraud typically involves the theft and fraudulent
                         cashing of U.S. Treasury checks, or the illicit conversion of
                         U.S. Treasury electronic fund transfers, by someone other than
                         the authorized RRB annuitant. During this reporting period, OI
                         obtained nine convictions for retirement fraud. The defendants
                         in these cases received sentences totaling one year
                         imprisonment, 22 years probation, and one year, four months
                         house arrest. They were also ordered to pay $268,187 in
                         restitution, and $325 in fines. The RRB will recover an
                         additional $187,185 in overpayments as a result of OIG
                         investigations of retirement benefit programs.

                         OI routinely receives referrals from the RRB’s Debt Recovery
                         Division that involve the fraudulent receipt of RRB retirement
                         annuity payments, usually by a relative of a deceased
                         annuitant.

                         Examples of recent retirement cases follow.

                         #	 OI opened a case based on an internal RRB referral that
                            indicated an annuitant had died but the agency had not
                            received notification of the death. As a result, the RRB
                            paid a total of $75,065 in annuity benefits after the
                            annuitant’s death.

                             A joint investigation with the U.S. Secret Service revealed
                             that a daughter had converted the funds paid to her
                             deceased father for her own use. She forged her father’s
                             signature and cashed 49 U.S. Treasury checks issued
                             after her father’s death. When interviewed, she admitted
                             she knew her actions were illegal.




                                           17
Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                       A 12 count indictment was filed against her for violating
                       Title 18, §641, Theft of Government Property and Title 18,
                       §1344, Bank Fraud. The subject pleaded guilty to the
                       theft of government property, and was subsequently
                       sentenced to three years probation and ordered to pay
                       restitution of $75,065 to the RRB.

                       After being indicted, the subject voluntarily cooperated
                       with law enforcement authorities by providing significant
                       information on unrelated criminal activities. The subject
                       provided critical information on the identification of
                       individuals who were in the possession of illegal firearms
                       and narcotics. As a result, her cooperation resulted in a
                       substantial number of Federal indictments and convictions
                       of major criminal targets.



                   P	 Another referral from the RRB’s Debt Recovery Division
                      indicated that a death match performed by the Social
                      Security Administration revealed that a current RRB
                      annuitant had died in June 2000. Because no notification
                      was forwarded to the RRB, the agency continued to
                      electronically deposit annuity payments totaling $20,981
                      into a joint account held by the deceased and his son.

                       OI special agents determined that the son had, in fact,
                       withdrawn all the funds through a series of ATM
                       transactions, debt card purchases and checks written
                       against the account. When interviewed, the son
                       admitted he was responsible for the withdrawals and
                       had failed to report his father’s death.

                       A criminal information was subsequently filed against the
                       subject for violating Title 18, §641, Theft of Government
                       Funds. He pleaded guilty and was ordered to pay
                       restitution of $19,390 to the RRB (the remaining funds
                       were recovered through a reclamation by the U.S.



                                     18
Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                       Treasury) and a special assessment of $25. He was also
                       placed on probation for four years.



                   #	 In May 1999, the agency’s Chicago District Office
                      planned to personally deliver a congratulatory
                      centenarian letter to an RRB annuitant. Because the
                      annuitant’s monthly annuity benefits were sent to a
                      post office box, RRB personnel sent a registered letter
                      requesting the annuitant to contact the RRB district
                      office. The return receipt for the letter was signed by
                      the annuitant or someone acting in his place. The
                      District Office subsequently received a telephone call a
                      few weeks later from a person who identified herself as
                      the annuitant’s daughter. She stated that her father
                      had been in Mexico, but had just returned. She invited
                      the RRB staff to visit him at any time at an address in
                      Chicago, but to telephone to set up a time. However,
                      when staff attempted to visit, no building existed at the
                      address provided.

                       OI special agents later identified the woman who had
                       telephoned the RRB and determined that she had
                       negotiated the annuity checks at various locations in
                       Chicago, IL and northwest Indiana. She had used the
                       funds to pay for personal obligations that she incurred. The
                       investigation also revealed that she was receiving
                       Supplemental Security Income (SSI) under various
                       identities.

                       In August 2002, a Federal Grand Jury indicted the subject
                       for violation of Title 18, §1341, Mail Fraud, and she pleaded
                       guilty. On January 14, 2005, she was sentenced to one
                       year probation, six months home confinement, ordered to
                       make full restitution of $67,705 to the RRB, and to pay a
                       special assessment of $100 to the District Court. The
                       subject currently resides in a nursing home in Chicago, IL.



                                     19
      Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                         #	 OI concluded another case during this reporting period
                            that involved a family member failing to inform the RRB
                            of the death of his mother. The case was opened
                            based upon a referral from the RRB District Office in
                            Newark, NJ. Although an annuitant has died, her son
                            continued to illegally receive her retirement benefits
                            from April 1993 through May 2002.

                             When OI agents interviewed the son, he admitted that he
                             had failed to notify the agency and that he fraudulently
                             received $85,852 in RRB benefits. In May 2004, he
                             accepted the Plea Agreement offered to him for violation of
                             Title 18, §641, Theft of Government Funds. In October
                             2004, he was sentenced to ten months home confinement
                             followed by four years supervised probation. He is also
                             required to make restitution to the RRB in the amount of
                             $85,852.



Disability Investigations

                         The OIG also conducts fraud investigations relating to the
                         RRB's disability program, which typically involves larger
                         financial amounts and more sophisticated schemes. An
                         individual who receives a disability annuity is restricted to
                         earning not more than $400 in one month. An earnings cap of
                         $4,999 per year also applies. Disability annuitants must report
                         all work activity to the RRB.

                         During this reporting period, OI obtained three convictions and
                         one civil judgement for disability fraud. The defendants in
                         these cases received sentences totaling three years, two
                         months imprisonment, seven years probation, and five months
                         house arrest. They were also ordered to pay $222,248 in
                         restitution, $4,125 in fines, $36,508 in damages and $5,000 in
                         penalties. The RRB will also recover $145,755 in
                         overpayments as a result of disability cases concluded during
                         this reporting period. Descriptions of several cases follow.

                                           20
Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                   #	 Based on an anonymous Hotline complaint, OI opened a
                      case involving a disability annuitant who was allegedly
                      earning in excess of $40,000 annually through employment
                      at a law firm that represents injured railroad workers.

                       Special agents found that, prior to receiving his
                       occupational disability award from the RRB, the
                       annuitant had been a union official with the United
                       Transportation Union and had worked for the Union
                       Pacific Railroad for 28 years. An examination of
                       records revealed that he had performed investigative
                       work for law firms during calendar years 1996
                       through 2003. In order to conceal his income, he
                       established a consulting and management company,
                       and had his compensation paid to the corporation.
                       During 1996 and 1998, he attributed his earnings
                       from the corporation to his spouse who was working
                       full-time for Union Pacific Railroad during the same
                       period. During the period 1999 through 2001, he had
                       concealed his income as consulting fees and non-
                       employee compensation.

                       In 2002, the annuitant had earnings of $12,823 reported to
                       his social security earnings record. In addition, he admitted
                       to earning in excess of the disability limitation during the
                       period January through May 2003, and advised the RRB to
                       suspend his annuity on June 1, 2003. This action resulted
                       in savings of $34,326 in disability benefits that would have
                       been paid erroneously to the subject during June 2003
                       through November 2004.

                       A criminal information was filed in United States District
                       Court in the northern district of Texas charging the subject
                       with a false statement in violation of Title 18, §1001, U.S.C.
                       False Statement. On November 16, 2004, he entered a
                       plea of guilty and was ordered to serve one year and one
                       day imprisonment, and placed on supervised release for
                       three years upon release from prison. The subject was


                                     21
Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                       also ordered to pay restitution of $106,266 at the rate of at
                       least $300 per month.



                   #	 OI received another Hotline complaint concerning an
                      occupational disability annuitant who was allegedly
                      employed by a towing company while claiming and
                      receiving a disability annuity from the RRB, but not
                      reporting his employment and earnings to the agency as
                      required. Special agents confirmed that the annuitant was
                      employed. In response to an RRB questionnaire regarding
                      his activities and earnings for an 11 year period, the
                      annuitant stated he had not worked and had no earnings
                      during the period.

                       OI agents subsequently conducted video surveillance of the
                       subject that revealed he was, in fact, performing towing
                       operations. They then obtained and analyzed numerous
                       business and financial records that confirmed the annuitant
                       had worked and earned income from December 1991
                       through October 2002. His earnings in 77 months were in
                       excess of the monthly limitations for receiving an RRB
                       disability annuity.

                       When interviewed by OI agents, the subject admitted he
                       had been the only employee of the towing company during
                       the period in question, and estimated his monthly earnings
                       to be about $2,000. He stated he had incorporated the
                       company in his wife’s name to hide his earnings from the
                       RRB. He also told the agents that he was willing to repay
                       the disability benefits that he received but to which he was
                       not entitled.

                       The subject was indicted by a Federal Grand Jury in the
                       central district of Illinois and charged with five counts of
                       violating Title 18, §1341, Mail Fraud. He pleaded guilty
                       and, on November 8, 2004, was sentenced to prison for a
                       term of five months per indictment count to be served


                                     22
     Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                            concurrently. Following his release, he will serve five
                            months of home confinement. He will then be on probation
                            for three years and must pay restitution of $115,982 and a
                            penalty of $500.

                        #	 OI initiated an investigation of a disability annuitant who
                           was identified based upon a comparison of RRB disability
                           annuitants and records maintained by North Carolina’s
                           Secretary of State Office as being associated with an
                           incorporated business. The annuitant was identified as
                           president of a poultry farm corporation but failed to report
                           his employment to the RRB.

                            OI issued an IG subpoena to a major poultry corporation for
                            records related to the annuitant and his corporation.
                            Records indicated that this corporation had issued non-
                            employee compensation to the annuitant and/or his
                            corporation for a total of $362,768. As a result, the RRB
                            calculated that the annuitant had received $89,883 in
                            disability benefits to which he had no entitlement.

                            On November 30, 2004, the subject pleaded guilty to one
                            count of Title 45, §231l, Failure to make a report or furnish
                            information required by the RRB, in U.S. District Court in
                            the middle district of North Carolina. He was sentenced to
                            one year probation, fined $3,500 and ordered to pay a $25
                            special assessment to the Department of Justice.

                            OI provided information to assist the agency in pursuing an
                            administrative recovery.


Unemployment and Sickness Insurance Investigations

                        Unemployment Insurance (UI) and Sickness Insurance (SI)
                        benefit fraud involves individuals claiming and receiving UI or
                        SI benefits while working and receiving wages from an
                        employer, in violation of Federal law. OI receives the majority


                                          23
Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005


                   of these cases for followup investigation from the RRB’s
                   Disability, Sickness and Unemployment Benefits Division as a
                   result of information developed from state wage matching
                   programs. These programs match RRB annuitants with
                   individuals who also had wages reported to the state during the
                   same period of time.

                   During this reporting period, OI obtained 13 convictions and 18
                   civil judgements for UI and SI fraud. Defendants in these
                   cases received, in the aggregate, 18 years probation, and were
                   ordered to perform 280 hours of community service. They
                   were ordered to pay $54,125 in restitution, $120,935 in
                   damages, $325 in fines, and $81,791 in civil penalties. The
                   RRB will also be able to recover an additional $30,884 as a
                   result of OI investigations.

                   Examples of cases completed this reporting period follow.



                   #	 A wage match with Texas identified an annuitant who
                      had received wages while claiming agency UI benefits.
                      The subject filed 14 false claims with the RRB’s Fort
                      Worth, TX District Office, and received $4,510 in
                      unemployment benefits to which he was not entitled.

                       The U.S. Attorney’s Office filed a civil complaint against the
                       annuitant for his fraudulent actions. On January 12, 2005,
                       the U.S. District Court filed a default judgement against the
                       subject and ordered him to pay $74,416 ($5,000 penalty
                       per false claim, $13,530 treble damages ,and $386 in
                       interest. The RRB will receive $4,510.



                   #	 A wage match with the State of Illinois resulted in a referral
                      to OI concerning an annuitant who was receiving UI
                      benefits on many of the same days that he was employed
                      by a non-railroad employer. OI investigation revealed that
                      the annuitant had filed nine false claims, resulting in the
                      fraudulent receipt of $4,080 while employed as a laborer.


                                     24
Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005


                       The U.S. Attorney’s Office filed a civil complaint
                       against the subject for his fraudulent actions. The U.S.
                       District Court in the Central District of Illinois
                       subsequently filed a default judgement against him
                       ordering payment of $4,080 to the RRB, and a civil
                       penalty amount of $8,160 to the U.S. District Court.



                   #	 The RRB referred another case to OI as the result of a
                      wage match with the State of Nevada. The program
                      identified an RRB unemployment insurance claimant who
                      falsely certified that he did not work on days for which he
                      claimed unemployment benefits. He falsely received
                      $5,954. The U.S. Attorney’s Office filed a civil complaint
                      against the subject. As a result, the U.S. District Court, Las
                      Vegas, NV filed a consent judgement for $7,900. Of this
                      amount, the RRB will receive the original overpayment of
                      $5,954 and the interest pertaining to this sum.




                                     25
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

                       OI continues to pursue prosecution of cases under the
                       Department of Justice's Affirmative Civil Enforcement Program.
                       This program involves "fast track" civil prosecution of cases
                       under the provisions of the Title 31, U. S. Code, Sections 3729-
                       3733, The Civil False Claims Act. This statute allows the
                       government to recover up to triple damages as well as $5,000
                       to $10,000 for each false claim submitted.

                       The Department of Justice frequently obtains double damages
                       through these civil false claims prosecutions. The judgements
                       obtained in these cases also provide the agency with an
                       efficient and effective basis to pursue their collection activities.

                       The ACE Program continues to provide an efficient means to
                       address fraud against agency programs, particularly where the
                       fraud losses are below the financial guidelines for criminal
                       prosecution. It also is an effective way to return fraud losses to
                       the RRB's trust funds and create a deterrent against future
                       fraud.

                       During this reporting period, eight civil judgements under the
                       ACE program were entered by Federal district courts which will
                       result in the return of $84,602 to the government when the
                       funds are collected.




                                         26
  Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




                           HOTLINE CALLS

The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and operations.
The Hotline provides an open line of communication for individuals to report
suspected criminal activity, conflict of interest, mismanagement, and waste of RRB
funds.



                                                                            10/01/04 -
                                                                            03/31/05
Total Contacts: (Telephone Calls and Letters)                                     480 



Referred to: RRB-OIG, Office of Investigations                                        50 



RRB Bureaus/Offices                                                               278 



Other Federal Agencies                                                                26 



RRB Medicare Carrier/Durable Medical Equipment

Regional Carriers
                                                                     1


Other (misdirected calls, follow-up calls to agents,

etc.)                                                                             115 

Calls for which there was insufficient information to

substantiate an allegation or to make a referral                                      10 





                                       27
  Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




LEGISLATIVE &
REGULATORY REVIEW

                     The Inspector General Act requires the Inspector General to
                     review existing and proposed legislation and regulations
                     relating to the programs and operations of the agency, and to
                     make recommendations in the semiannual report concerning
                     the impact on the economy and efficiency of the agency’s
                     administration of its programs and on the prevention of fraud
                     and abuse.

                     During this reporting period, the agency issued no regulations.




                                       28
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




APPENDIX A

REPORTS ISSUED

   #    Fiscal Year 2004 Financial Statement Audit, October 25, 2004

   #	   Fiscal Year 2004 Financial Statement Audit, Letter to Management,
        October 25, 2004

   #	   Review of the RRB’s Compliance with Federal Laws and Regulations on
        Competitive Sourcing, December 3, 2004

   #	   Evaluation of the RRB’s Processing of Disability Earnings Cases,
        February 11, 2005




                                         29
         Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




APPENDIX B

        INSPECTOR GENERAL ISSUED REPORTS WITH

                  QUESTIONED COSTS


                                                             Questioned         Unsupported
                                             Number            Costs               Costs

A. For which no management decision had
been made by October 1, 2004                    0                 0                  0


B. Which were issued from October 1, 2004
through March 31, 2005                          0                 0                  0


Subtotals (A + B)                               0                 0                  0


C. For which a management decision was

made from October 1, 2004 through 

March 31, 2005                                  0                 0                  0



(i) dollar of disallowed costs                                    0                  0


(ii) dollar value of costs not disallowed                         0                  0


D. For which no management decision had
been made by March 31, 2005                     0                 0                  0


Reports for which no management decision
was made within six months of issuance          0                 0                  0




                                              30
         Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




       INSPECTOR GENERAL ISSUED REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO
                    BETTER USE


                                                          Number              Dollar Value

A. For which no management decision had been
made by October 1, 2004                                     0                      0


B. Which were issued from October 1, 2004 through
March 31, 2005                                              1                 $ 1,800,000


Subtotals (A + B)                                           1                 $ 1,800,000


C. For which a management decision was made

from October 1, 2004 through March 31, 2005                 1



(i) dollar value of recommendations that were agreed

to by management                                                              $ 1,800,000



(ii) dollar value of recommendations that were not
agreed to by management                                                            0


D. For which no management decision had been
made by March 31, 2005                                      0


Reports for which no management decision was
made within six months of issuance                          0




                                                     31
    Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




APPENDIX C
REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES

   The FY 1999 appropriations language for this office requires the reporting of
   additional information concerning actual collections, offsets and funds put to better
   use achieved as a result of Inspector General activities.

   Office of Audit

              Funds to be put     Funds Agreed         Receivables                  Recoveries
    Report      to better use     by Management        Established      Waivers       to date

    99-03     $          50,850   $         50,850     $     50,580   $    50,490   $      360 

    99-14                83,000             83,000*          34,423                     30,584 

    99-16            48,000,000         48,000,000 

    99-17            11,000,000         11,000,000                                  1,604,535**
    00-16               235,000            235,000                                    253,846***

    04-06               820,766            820,766         646,623                    494,069 

    04-10               400,000            400,000 


   * This figure includes monies owed to the agency and overpayments which must be refunded.
   ** This figure represents case corrections that resulted in receivables, annuitant payments,
      employer tax credits and liabilities.
   ***This figure represents returned payments credited to debtor accounts.

   Office of Investigations

   Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

    FY 1999                                                            $      855,655
    FY 2000                                                                1, 038,134
    FY 2001                                                                   990,356
    FY 2002                                                                   785,843
    FY 2003                                                                   947,876
    FY 2004                                                                   646,273
    October 1, 2004 - March 31, 2005                                          376,130




                                               32
          Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




APPENDIX D
RRB MANAGEMENT REPORTS*

               MANAGEMENT REPORT ON FINAL ACTION

               ON AUDITS WITH DISALLOWED COSTS FOR

             THE SIX MONTH PERIOD ENDING MARCH 31, 2005



                                                                                   Disallowed
                                                            Number                   Costs
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                      0                       0

 B. Audit reports on which management decisions
 were made during the period.                                  0                       0

 C. Total audit reports pending final action during
 the period.                                                   0                       0

 D. Audit reports on which final action was taken
 during the period.

 1. Recoveries

    (a) Collections                                            0                       0
    (b) Property
    (c) Other


 2. Write-offs                                                 0                       0


 3. Total of 1 and 2                                           0                       0


 E. Audit reports needing final action at the end of           0                       0
 the period.

* The information contained in this section has been provided by RRB management.




                                                       33
          Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




 MANAGEMENT REPORT ON FINAL ACTION ON AUDITS WITH
RECOMMENDATIONS TO PUT FUNDS TO BETTER USE FOR THE
      SIX MONTH PERIOD ENDING MARCH 31, 2005


                                                                                         Funds to be put
                                                                Number                    to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                          3                      $ 48,929,996 *

 B. Audit reports on which management decisions
 were made during the period.                                      1                      $ 1,800,000 **

 C. Total audit reports pending final action during
 the period.                                                       4                      $ 50,729,996

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                          0                      $     0

 2. Value of recommendations that management
 concluded should not or could not be
 implemented.                                                       0                     $     0

 3. Total of 1 and 2.                                               0                     $     0

 E. Audit reports needing final action at the end of
 the period.                                                       4                      $ 50,729,996


* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange: Status of
Prior Recommendations for Change;” and $529,996 from Audit Report 01-11, “Review of the Quality of the
Debt Recognition and Collection Process for Railroad Retirement Act Overpayments,” and $400,000 from
Audit Report 04-10, “Review of Spouse Annuity Work Deductions at the Railroad Retirement Board.”

**Identified in Audit Report 05-03, “Evaluation of the RRB’s Processing of Disability Earnings Cases.”




                                                       34
           Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF MARCH 31, 2005


                                                      Funds to be
                                        Disallowed    put to better        Reason action has not
         Report                Date       Costs       use                     been completed

Review of Quality             1/22/97     None            None	       The remaining recommendation will
Assurance Activities                                                  be addressed in conjunction with
(97-06)                                                               efforts to improve calculation and
                                                                      reporting of performance measures.

Review of Non-Priority        3/13/97     None            None	       The Office of Programs plans to
Correspondence                                                        implement a tracking system in FY
Handling (97-09)                                                      2006 to close the remaining
                                                                      recommendation.

Review of Railroad            9/21/99     None            None	       The agency is compiling data on the
Unemployment Insurance                                                effectiveness of program changes
Act Contributions (99-14)                                             that expedited the reconciliation
                                                                      process.

Financial Interchange:        9/28/99     None        $48,000,000	    The Social Security Administration
Status of Prior                                                       and the RRB agreed on a method to
Recommendations for                                                   include uncollectible overpayments
Change (99-16)                                                        in future Financial Interchange
                                                                      computations.

Information Systems           6/28/00     None            None	       The agency has implemented 12
Security (INFOSEC)                                                    recommendations, and is working to
Assessment Report                                                     close out the remaining 3.

Review of Document     11/17/00           None            None	       The agency is making progress,
Imaging - Railroad                                                    using hardware and software
Unemployment Insurance                                                approaches, to improve server
Act Programs (01-01)                                                  backup and disaster recover
                                                                      capabilities.

Audit of the RRB’s            2/23/01     None            None	       The Bureau of Information Services
FY 2000 Financial                                                     is working to enhance problem
Statements (01-03)                                                    reporting and phase out obsolete
                                                                      servers.

Site Security Assessment      7/20/01     None            None	       The Bureau of Information Services
for the Office of Inspector                                           has closed out 10 recommendations,
General                                                               and is in the process of addressing
                                                                      the last 2.




                                                     35
           Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF MARCH 31, 2005


                                                     Funds to
                                        Disallowed   be put to               Reason action has not
         Report                Date       Costs      better use                 been completed

Review of the Quality of     8/09/01      None            $ 529,996	   The Office of Programs will evaluate
the Debt Recognition                                                   the results of a case review and
and Collection for RRA                                                 hopes to issue findings in the spring
Overpayments (01-11)                                                   of 2005.

Security Controls            8/17/01      None              None	      The Bureau of Information Services
Analysis for the Office of                                             has closed 35 recommendations and
Inspector General                                                      is developing necessary
                                                                       documentation on the remaining 3.

Review of Information        2/05/02      None              None	      The Bureau of Information Services
Security at the Railroad                                               has closed 16 recommendations and
Retirement Board                                                       is currently addressing the remaining
(02-04)                                                                12.

FY 2002 Evaluation of        8/27/02      None              None	      The agency updated its disaster
Information Security at                                                plans, and recently awarded a new
the RRB (02-12)                                                        contract for offsite recovery services.


Evaluation of the Self- 12/27/02          None              None	      The Bureau of Information Services
Assessment Process for                                                 is devising procedures to improve
Information System                                                     system security assessments,
Security (03-02)                                                       including use of automated software
                                                                       tools during FY 2005.

Evaluation of the RRB        12/27/02     None              None	      The Bureau of Fiscal Operations
E-government Initiative:                                               closed nine recommendations and is
RUIA Contribution                                                      working on an MOU with Treasury to
Internet Reporting and                                                 close the remaining two.
Payment (03-03)

Inspection of Unverified     3/20/03      None              None	      The Office of Programs is reviewing
Records in the RRB’s                                                   records and developing procedures
Employment Data                                                        to verify employer reported data for
Maintenance System                                                     individual railroad workers.
(03-06)




                                                     36
         Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
  OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                AS OF MARCH 31, 2005


                                                     Funds to
                                   Disallowed        be put to          Reason action has not
        Report             Date      Costs           better use           been completed

Review of the RRB’s     9/8/03        None              None	     The Bureau of Information Services
PIN/Password System for                                           will establish procedures as part of
On-Line Authentication                                            its standards update for Report
(03-09)                                                           03-10 to close the remaining
                                                                  recommendation.

Review of the Systems    9/8/03       None              None	     The Bureau of Information Services
Development Life Cycle                                            is identifying needed programming to
for End-User Computing                                            improve tracking and quality reviews
(03-10)                                                           of systems projects.




                                                37
        Semiannual Report to the Congress for the period October 1, 2004 - March 31, 2005




APPENDIX E
REPORTING REQUIREMENTS

Inspector General Requirements                                                                   Page

    Section 4(a)(2) - Review of Legislation and Regulations                                         28
    Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 5
    Section 5(a)(2) - Recommendations With Respect to Significant Problems,
     Abuses, and Deficiencies                                                                        6
    Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                          6
    Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   14
    Section 5(a)(5) - Instances Where Information Was Refused                                    None
    Section 5(a)(6) - List of Audit Reports                                                         29
    Section 5(a)(7) - Summary of Each Significant Report                                             5
    Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                30
    Section 5(a)(9) - Statistical Tables on Management Decisions on
     Recommendations That Funds Be Put to Better Use                                                31
    Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
     For Which No Management Decision Has Been Made                                              None
    Section 5(a)(11) - Description and Explanation for Any Significant
     Revised Management Decision                                                                 None
    Section 5(a)(12) - Information on Any Significant Management Decisions
     With Which the Inspector General Disagrees                                                  None


Management Requirements


    Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
    Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         33
    Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  34
    Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          35




                                                38
              REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: 	RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
